           INDUSTRIAL PRIME VENDOR PROGRAM AT THE
             NAVAL AVIATION DEPOT – CHERRY POINT


Report No. D-2001-171                          August 6, 2001




             Office of the Inspector General
                 Department of Defense
  Additional Information and Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at (703)
  604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                      Inspector General, Department of Defense
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms
CRR                  Cost Recovery Rate
DLA                  Defense Logistics Agency
DODAAC               Department of Defense Activity Address Code
DSCP                 Defense Supply Center Philadelphia
EA                   Each
HD                   Hundred
IPV                  Industrial Prime Vendor
MAUC                 Mean Acquisition Unit Cost
NIF                  Navy Industrial Fund
NSN                  National Stock Number
PEB                  Pre-Expended Bin
SUP                  Standard Unit Price
                        Office of the Inspector General, DoD
Report No. D-2001-171                                                  August 6, 2001
  (Project No. D1999CF-0104.001)

                      Industrial Prime Vendor Program at the
                        Naval Aviation Depot − Cherry Point

                                   Executive Summary

Introduction. This report is one in a series involving the pricing of commercial and
noncommercial spare parts and other logistics support initiatives. This report addresses
bench-stock material (screws, bolts, rivets, etc.) and logistics support procured from
Raytheon E-Systems Incorporated under the industrial prime vendor program to support
the Naval Aviation Depot, Cherry Point, North Carolina. Report No. D-2001-072,
“Industrial Prime Vendor Program at the Naval Aviation Depot−North Island,”
March 5, 2001, addressed the program at the Naval Aviation Depot, North Island,
California. A third audit will address the industrial prime vendor program at the Air
Force Logistics Centers. The Defense Supply Center Philadelphia initiated the industrial
prime vendor program in July 1998 as a test or demonstration program to explore
innovative logistics solutions for providing spare parts used in maintenance, repair and
overhaul facilities. The conceptual goal of the industrial prime vendor program was to
improve logistics support to the service depot maintenance facilities at a lower cost by
streamlining the logistics pipeline. The industrial prime vendor program is a customer
oriented supply chain management initiative that turns complete responsibility of bench-
stock material over to a third-party vendor. The primary customers covered under the
demonstration program are Navy depots and Air Force logistics centers. FY 2001 budget
figures show overall bench-stock sales at about $284 million, which includes the
industrial prime vendor bench-stock sales at about $38 million.

The Defense Supply Center Philadelphia awarded industrial prime vendor contract
(SP0500-98-D-BP03) to Raytheon on August 19, 1998 to support Cherry Point. The
contract has an estimated material value of $15 million annually. Also, the contract
provides approximately $1,260,000 in annual overhead costs and $450,000 in annual
transportation costs. From contract inception (August 1998) through July 2000, program
sales totaled $1,569,120 ($720,605 spot buys; $655,368 preexpended bin; and
$193,147 Navy industrial fund). Raytheon is responsible for purchasing bench stock and
maintaining the stock bins. Raytheon used direct vendor delivery contracts with a core
team of subcontractors to supply the material.

Objective. The primary audit objective was to determine whether the Defense Supply
Center Philadelphia industrial prime vendor program had demonstrated an effective shift
to commercial, industrial-base resources as an integrated logistics solution to obtain
bench-stock material and add value for its customers.
Results. The Defense Supply Center Philadelphia industrial prime vendor program at
Cherry Point had not placed sufficient bench-stock material on contract to demonstrate an
effective shift to commercial, industrial-base resources as an integrated logistics solution
to support Cherry Point. As a result, Raytheon was primarily relying on the Defense
supply system for the bench-stock material used to support the program at Cherry Point.
In fact, 82 percent (dollars) and 84 percent (line items) of material supplied by Raytheon
came from the Defense supply system. In short, Raytheon was effectively managing
bench-stock material, but was unable to obtain more than 16 percent of the material from
sources other than the Defense Logistics Agency. Although the industrial prime vendor
program provided additional resources to manage bench-stock material at Cherry Point
and improve parts availability, the program will not become cost effective unless
Raytheon can place sufficient material on contract at economical prices (finding A).

Raytheon also erroneously charged Cherry Point for material on the contract. We
calculated that Cherry Point was overcharged by $666,883 because of problems with
unpriced items, units of issue, and contract oversight. Raytheon refunded $337,893 to
Cherry Point on June 1, 2000. Similar conditions were reported at North Island in Report
No. D-2001-072. For details of the audit results, see the Finding section of this report
(finding B).

Summary of Recommendations. We recommend that the Commander, Defense Supply
Center Philadelphia direct industrial prime vendor contract prices be renegotiated within
established cost goals and provide alternatives to keep conventional bench-stock support
competitive by either reducing costs or increasing sales. The supply center should also
calculate a fair and consistent cost recovery rate for traditional bench-stock material to
effectively evaluate the cost effectiveness of the industrial prime vendor program. We
also recommend that the supply center obtain a full refund for erroneous charges and
fully reimburse Cherry Point and implement procedures to detect and prevent erroneous
billings on future invoices.

Management Comments. The Defense Supply Center agreed to review actual parts
usage with updated demand to identify cost drivers for repricing. The supply center
agreed to look at alternatives for bench-stock support and is developing “generation II” of
the industrial prime vendor program. The supply center agreed to use the appropriate
cost recovery rates to place items on contract and for program evaluation purposes. The
supply center agreed to provide an exit strategy for Cherry Point with the industrial prime
vendor generation II. The supply center agreed to refund Cherry Point an appropriate
amount of overcharges and to implement procedures to prevent erroneous billings on
future invoices.

Although no comments were required, the Naval Aviation Depot Cherry Point, North
Carolina commented on the report findings and recommendations. The depot stated that
better material availability is provided under this contract.




                                             ii
Table of Contents

Executive Summary                i


Introduction
     Background                 1
     Objective                  2

Findings
     A. Bench-Stock Material     3
     B. Contract Pricing        15

Appendixes
     A. Audit Process           20
          Scope                 20
          Methodology           21
     B. Prior Coverage          22
     C. Report Distribution     24


Management Comments
     Defense Logistics Agency   27
     Department of the Navy     30
Background
    Spare Parts Audits. This report is one in a series involving the pricing of
    commercial and noncommercial spare parts. This report addresses bench-stock
    material and logistics support procured from Raytheon E-Systems Incorporated
    under the industrial prime vendor (IPV) program. Table 1 shows the items
    included in bench-stock material and the Federal Supply Class (FSC).

           Table 1. Bench Stock Material and Federal Supply Class
                     Material                           FSC
              Gaskets and packing                    5330, 5331
                Nuts and washers                         5310
             Screws, bolts, and studs              5305, 5306, 5307
              Nails, pins, and rivets              5315, 5320, 5325


    Demonstration Program. The Defense Supply Center Philadelphia (DSCP)
    initiated the IPV program in July 1998 as a test program to explore innovative
    logistics solutions for providing maintenance, repair, and overhaul facilities with
    spare parts. The conceptual goal of the IPV program was to improve logistics
    support to service depot maintenance facilities at lower costs by streamlining the
    logistics pipeline. A justification for other than full and open competition was
    approved and a limited number of site-specific contracts were awarded so that the
    concept could be evaluated. The program was designed for a 5-year test period.
    During the 2-year contract base period, material management responsibility was
    expected to migrate from the Government to the contractor’s full responsibility
    within 3 years. As performance progressed on initial contracts, metrics would be
    established to assess the impact of total logistics costs and readiness posture at
    specific sites.

    The Defense Logistics Agency (DLA) is maintaining its logistics support system
    concurrent with the new system as a backup logistics system. Once the new
    logistics systems have been fully tested and determined successful, performance
    metrics will be refined and the program will be converted to a fully competitive
    acquisition environment targeting consolidated requirements based on common
    missions and/or weapon system. At that time, the concurrent systems would
    become redundant and require functional adjustments. DSCP awarded a number
    of IPV contracts to various contractors to support Defense depots throughout the
    world. This report only addresses the Raytheon IPV contract at the Naval
    Aviation Depot − Cherry Point, (Cherry Point), North Carolina. Additional audit
    reports will assess the IPV program at other sites.

    DSCP awarded Raytheon the Cherry Point IPV contract (SP0500-98-D-BP03) on
    August 19, 1998. The contract was valued at about $15 million annually, with
    approximately $1,260,000 in annual distribution (infrastructure) costs and


                                         1
    $450,000 in annual transportation costs. Raytheon purchased bench stock to
    maintain stock bins at or near where depot maintenance was performed.
    Raytheon did not stock inventory but used direct vendor delivery contracts with
    various companies to supply items directly to Cherry Point. In the event that
    Raytheon could not economically purchase an item, contract clauses authorized
    Raytheon to supply the material from DLA stock. Raytheon did not earn profit on
    materials obtained from DLA stock. The IPV program was designed to provide
    benefits for DoD and direct benefits to the warfighters. Table 2 shows the
    intended IPV program benefits.

                         Table 2. Intended IPV Program Benefits
                       Reduced                                          Increased
                Logistics response time                                Readiness
                Customer material costs                        Financial accountability
                     Transactions                                   Rapid response
                 Inventory investment                            Material availability
      Storage, handling, and transportation costs     Opportunities for infrastructure streamlining



    Section 912 Report. Section 912(c) of the FY 1998 National Defense
    Authorization Act directed the Secretary of Defense to submit an implementation
    plan to Congress that streamlined acquisition organizations, workforce, and
    infrastructure. In response, the Secretary of Defense submitted a report to
    Congress, "Actions to Accelerate the Movement to the New Workforce Vision,"
    April 1, 1998. The report included a section that addressed prime vendor
    contracts.

                Greatly Expanded Prime Vendor and Virtual Prime Vendor. As a
                result of the revolutions in the marketplace - in terms of transportation,
                manufacturing, and technology - it is no longer necessary for DoD to
                manage supplies. What DoD needs to do is manage suppliers through
                programs such as Prime Vendor; and where Prime Vendor is not a
                commercial practice in a particular sector, create a Virtual Prime
                Vendor which accomplishes the same outcome through the use of
                technology. This initiative will reduce the number of personnel and the
                amount of infrastructure we need to support our warfighters. It will
                also improve delivery of products and services, but will require the
                acquisition of new skills by our existing workforce.

Objective
    The primary audit objective was to determine whether the Defense Supply Center
    Philadelphia industrial prime vendor program had demonstrated an effective shift
    to commercial, industrial-base resources as an integrated logistics solution to
    obtain bench-stock material and add value for its customers. See Appendix A for
    a discussion of the audit scope and methodology, and Appendix B for prior
    coverage related to the audit objectives.


                                               2
           A. Bench-Stock Material
           DSCP had not placed sufficient bench-stock material on the IPV contract
           with Raytheon to demonstrate an effective shift to commercial, industrial-
           base resources as an integrated logistics solution to support the Naval
           Aviation Depot − Cherry Point. This condition occurred because the IPV
           contractor was unable to obtain material as economically as DSCP and
           meet established cost goals to place material on contract. In addition,
           about a third of the material placed on contract was clearly not within
           established cost goals (79.3 percent higher than DLA cost). As a result,
           Raytheon was primarily using the DLA supply system to obtain bench-
           stock material to support the IPV program at Cherry Point. Overall, 82
           percent (dollars) and 84 percent (line items) of the material supplied by
           Raytheon came from the DLA supply system. Although the IPV program
           provided additional resources to manage bench-stock material at Cherry
           Point and improved parts availability, the program will not become cost
           effective unless sufficient material can be placed on contract at
           economical prices. Also, transitioning bench-stock sales from
           conventional support to the IPV program without corresponding
           infrastructure cost reductions is causing the DSCP cost recovery rate for
           conventional bench-stock material support to increase, effectively
           “lowering the bar” for measuring the cost effectiveness of the IPV
           program.

IPV Program Concept
    Streamlining the Logistics Pipeline. DSCP designed the IPV program to
    streamline the logistics pipeline by transferring procurement and logistics support
    requirements for bench-stock material from DSCP to Raytheon. Raytheon was
    responsible for ordering, purchasing, receiving, stocking, and billing bench-stock
    material. Raytheon’s purchasing departments and on-site employees at Cherry
    Point accomplished these contract requirements. The IPV concept called for
    Raytheon to serve as an integrator and establish contracts with manufacturers that
    would ship the bench-stock parts directly to Cherry Point (direct vendor delivery).
    DSCP believed that Raytheon could supply parts more efficiently and effectively
    by taking advantage of the commercial supply chain as compared to the DLA
    supply system. DSCP touted the IPV program as a model for DoD procurement
    and logistics support.




                                         3
Figure 1 shows the DSCP purchasing model for the IPV program.




                    IPV Contract


                                        IPV                      IPV Customer
                                     Contractor                    Support at
    DSCP                  Contract
                                                                 NADEP Cherry
  Contracting                                        DVD Parts
                                                     Shipment        Point
    Officer

                                     Manufacturers


Figure 1. DSCP Model for the IPV program

Placing Material on IPV Contract at Economical Prices. The basic concept
for placing material on the IPV contract at economical prices was that Raytheon’s
unit prices for bench-stock parts supplied through the commercial supply chain
needed to be within 80 percent of the DLA standard unit price (SUP). The SUP is
the price DLA charged its customers. The SUP was derived from the mean
acquisition unit cost (MAUC), the actual price DLA paid for items and included
the cost recovery rate charged by the supply center responsible for managing the
item. The cost recovery rate recouped supply center operations costs, depot costs,
corporate and other miscellaneous costs. For example, if DSCP purchased an
item for $100 (the MAUC) and its cost recovery rate was 40 percent, the DLA
customer price for the item was $140 (the SUP).

        Reasonable Cost Goal. Raytheon basically needed to obtain the item for
no more than 80 percent of the SUP for an item to be included on the IPV contract
within a reasonable cost goal. Raytheon added a 6 percent profit on all material
provided through its commercial supply chain and also charged a fixed amount
for annual infrastructure costs ($1,260,000) and for annual transportation costs
($450,000). Raytheon can also receive a 2 percent award fee. DSCP then added a
5.7 percent special cost recovery rate for the IPV program. In theory, if sufficient
items had been included on the IPV contract, Raytheon’s profit, infrastructure,
and transportation costs, and the DSCP surcharge would have been offset by the
20 percent difference in material from the DLA SUP. If items were included on
contract at prices higher than 80 percent of the SUP, the IPV program would cost
more than if the items were provided from the DLA supply system.

Figure 2 (DSCP figures) shows the initial cost comparison used by DSCP to
promote the IPV program savings at Cherry Point. The calculations show the cost
of traditional DLA support versus anticipated IPV program support costs. Again,
DSCP calculated that Raytheon could purchase material at 80 percent of the DLA
SUP ($15 million DLA material amount versus $12 million Raytheon material
amount). The DLA material costs include the applicable cost recovery rate.



                                      4
                              Cherry Point
                      Total Yearly Cost Comparison
                       DLA                               Raytheon
          Material         $15,000,000          Material          $12,000,000
                                                Transportation       $450,000
          Infrastructure      $750,000          Infrastructure      $1,289,400
          (15 Personnel)
                                                8 % Profit/
          Fee                        $0            Award Fee         $960,000
                                                DSCP Surcharge         837,866
                           $15,750,000                            $15,537,266
                                               Savings              ($212,736)

                                                                          3
                                          Supporting America’s Fighting Forces



    Figure 2. DSCP's Initial IPV Program Calculations Show Minimal Savings

    We were unable to substantiate the $750,000 (15 personnel) infrastructure costs at
    Cherry Point used in Figure 2.

Material on Contract
    DSCP had not placed sufficient bench-stock material on the IPV contract with
    Raytheon to demonstrate an effective shift to commercial, industrial-base
    resources as an integrated logistics solution to support the Naval Aviation Depot −
    Cherry Point. This condition occurred because the IPV contractor was unable to
    obtain material as economically as DSCP and meet established cost goals to place
    material on contract. In addition, about a third of the material placed on contract
    was clearly not within established cost goals (79.3 percent higher than DLA cost).
    As a result, Raytheon was primarily using the DLA supply system to obtain
    bench-stock material to support the IPV program at Cherry Point, in fact 82
    percent (dollars) and 84 percent (line items) of the material supplied by Raytheon
    came from the DLA supply system.

    Market Baskets. DSCP used “market baskets” or groups of items to add material
    to the IPV contract. The market basket approach meant that some items could be
    higher than 80 percent of the SUP while others were lower; but cumulatively, the
    total costs should not exceed 80 percent of the SUP. Raytheon submitted groups
    of items (with expected demand quantities) to DSCP for approval. DSCP added
    items to the contract without regard to individual unit prices if the market baskets
                                          5
met the 80 percent criteria. Raytheon used the DLA supply system for those
items that were not procurable within the 80 percent SUP threshold or caused the
market basket to exceed 80 percent without earning a profit.

Contract Prices for Items Billed. IPV contract prices for items actually billed
exceeded the 80 percent threshold (items prices not at least 20 percent below
SUP) because about a third of the items placed on contract ($239,577) were
clearly not within the established cost goal. For cost comparison purposes we
used both the DLA MAUC and the SUP. The MAUC provided a more consistent
measure because of the significant increases in the DSCP cost recovery rates
(CRR) for bench-stock material. For example, if DSCP paid $100 for an item, the
SUP for that item would have been $140 (40 percent CRR) in FY 1999, $157.20
(57.2 percent CRR) in FY 2000, and $174.90 (74.9 percent CRR) in FY 2001.
Therefore, the 80 percent SUP threshold would have varied from $112 (.8 x $140)
in FY 1999, to $125.76 in FY 2000, to $139.92 in FY 2001.

Table 3 shows that overall, IPV contract prices for bench stock material were
40.4 percent higher than the MAUC and only 8.7 percent below the SUP. The
contract prices for items not within established costs goals were 17.2 percent
higher than the SUP.

 Table 3. Comparison of IPV Bench-Stock Contract Prices With the DLA MAUC and SUP
  Contract/      Lines     Contract    FY 2000 DLA Price        CRR     Percent Difference
 Modification    Billed     Price      MAUC        SUP        (percent) MAUC        SUP
      Within established cost goals
   P00010          1,792 $238,630       $195,702   $296,704                 21.9    (19.6)
   P00011            150     75,560       66,329    103,993                 13.9    (27.3)
   P00021a           309     53,059       43,156     69,445                 22.9    (23.6)
   P00048             29       2,604       1,579      2,957                 64.9    (11.9)
   P00050              5       1,110         812      1,258                 36.7    (11.8)
   P00053             24         525         585        719               (10.2)    (26.9)

   Subtotal        2,309 $371,488       $308,163   $475,076     54.2        20.5    (21.8)

     Not within establish cost goals
    Basic           531 $146,020         $75,464   $117,087                 93.5     24.7
   P00004            385    103,461       71,453    109,111                 44.8     (5.2)
   P00031          1,035     31,272        9,632     13,371                224.7    133.9
   P00047              1         14            5          8                167.4     75.9

   Subtotal        1,952 $280,767       $156,554   $239,577     53.0        79.3     17.2

    Total          4,261 $652,255       $464,717   $714,653     53.8        40.4     (8.7)



DSCP needs to renegotiate IPV contract prices on contract modifications not
within established cost goals (about 20 percent above MAUC or below SUP).
Recommendation 1.a., in Report No. D-2001-072 addressed the need to perform
periodic reviews to determine whether parts usage established during contract

                                        6
               pricing, agrees with actual usage, when using market baskets. Recommendation
               1.d., addressed the need to establish metrics that compare the MAUC with IPV
               contract costs, and to not place items on contract if costs exceed 120 percent of
               the MAUC. Therefore, similar recommendations in this report were not made.

               Material on the IPV Contract. Even though bench-stock material was placed
               on contract at prices that exceeded the established cost goals, sufficient material
               had not been placed on contract to make the program cost effective and the
               majority of the material was being supplied from the DLA supply system.

               Figures 3 (transactions) and Figure 4 (dollars) show that for Invoices 2 (first
               invoice) through 19 (July 2000), IPV commercial sales (items the contractor was
               able to procure and supply) were significantly less than the value of the items
               being supplied by the DLA supply system.


                                           Distribution of IPV transactions

             3,500

             3,000
                                                                                                       DLA
             2,500
Line Items




             2,000

             1,500

             1,000

              500                                                                                      Commercial

                0
                     2   3   4   5    6   7    8    9       10     11   12   13   14   16   17   18   19
                                                        Invoices


               Figure 3. Most IPV transactions (line items) are from the DLA Supply
               System




                                                        7
                                           Distribution of IPV Sales (Dollars)
          $1,000,000


           $800,000


           $600,000
Dollars




                                                                                                              DLA

           $400,000


           $200,000

                                                                                                              Commercial
                 $0
                       2   3   4   5   6    7    8     9      10      11   12   13   14   16   17   18   19

                                                           Invoices
               Figure 4. Most IPV Sales (dollars) are from the DLA Supply System

               Total commercial sales transactions were 15.6 percent (5,226) of the total IPV
               transactions, while 84.4 percent (28,197) of the transactions represented DLA
               sales. Total commercial sales were 18.3 percent ($1,569,120) of the total dollars
               while DLA sales (items obtained from the DLA supply system) were 81.7 percent
               ($7,017,169).

               Recommendation 1.f., in Report No. D-2001-072 addressed the need to establish
               program metrics for bench-stock material that show a significant shift in the
               number of transactions supplied from its depot system to industry, establish time
               frames to attain the metrics, and if unable to achieve the established metrics,
               discontinue the program. Therefore, a similar recommendation in this report was
               not made.

Bench-Stock Business
               Bench Stock Business. Although the IPV program provided additional resources
               to manage bench-stock material at Cherry Point and improved parts availability,
               the program will not become cost effective unless sufficient material can be
               placed on contract at economical prices. Also, transitioning bench-stock sales
               from conventional support to the IPV program without corresponding
               infrastructure cost reductions is causing the DSCP cost recovery rate for
               conventional bench-stock material support to increase, effectively lowering the
               bar for measuring the cost effectiveness of the IPV program.

               Availability of Parts. Even though data were not available on parts availability
               prior to the IPV program, it would be difficult to dispute the claim that the IPV
               program at Cherry Point had increased parts availability; however, significantly
               more resources were devoted to managing bench-stock material under the IPV
               program. Prior to the IPV contract, Cherry Point felt it was short-staffed by
               20 personnel in managing bench-stock material. The staffing shortages were
               primarily for material handlers and parts attendants. Cherry Point had requested
                                                       8
but was denied funding for 20 additional staff from the Navy Comptroller. The
IPV program alleviated this staff shortage by providing 23 additional contractor
personnel to manage bench-stock material but the infrastructure costs associated
with these additional resources were about $1.26 million. Under the IPV
program, these additional personnel costs are included in the IPV program costs.
Along with providing additional resources, the IPV contract also provided a
significant change in the management of bench-stock items from the Navy
industrial fund stores to pre-expended bins.

Accordingly, while parts availability at Cherry Point had increased, availability of
parts supplied from the DLA depot system and by the IPV contractor was the
same even though four times as many bench-stock bins were supplied with
material from the DLA depot system. As of December 15, 2000, Raytheon
provided material for 4,248 item bins (19.1 percent) and material for 18,039 item
bins (80.9 percent) was supplied by DLA. We reviewed empty bin reports
provided by Raytheon from July through December 2000. However, the reports
do not differentiate between the number of Raytheon managed bins and DLA
managed bins. To determine the number of bins managed by Raytheon and DLA,
we used the ratio established from total parts supported. The average number of
bench stock bins managed was 18,331. On average, 94 bins were empty.
Raytheon was responsible for 16 empty bins and 78 empty bins were DLA's
responsibility. Therefore, the parts availability compliance rate was 99.5 percent
for both Raytheon (3,494) and DLA (14,837 bins).

Increases in Bench-Stock Conventional Cost Recovery Rates. During
FY 1999, the DSCP cost recovery rate for bench-stock material ranged from 38.0
percent for gaskets and packing to 42.3 percent for nuts and washers and averaged
about 40 percent. When decisions were made to place items on the IPV contract,
DSCP compared the proposed prices from the IPV contractor to the DLA
FY 1999 SUP or sell price, which included the cost for material and the
applicable cost recovery rate. However, in FY 2000, DSCP established a separate
cost recovery rate for bench-stock items. The new DSCP rate was significantly
higher, 57.2 percent, than the DSCP overall cost recovery rate of 39.8 percent.
The FY 2001 cost recovery rate for bench stock was even higher, 74.9 percent,
while the overall DSCP cost recovery rate was only 40.5 percent. These higher
rates enabled Raytheon to purchase items at higher prices and include them on the
contract. We reviewed the various cost elements of the bench-stock cost recovery
rates for FYs 2000 and 2001 and determined that the rates did not accurately
reflect the costs associated with DSCP managing bench-stock material. In
addition, the true IPV surcharge was understated.




                                     9
Tables 4 and 5 show that if costs not directly associated with bench-stock material
were removed, and if the IPV program was discontinued, the cost recovery rates
for bench-stock material would be 45.3 for FY 2000 and 49.4 percent for
FY 2001. Table 5 also shows IPV program sales at $38 million about 13.4
percent with traditional sales at $245.83 million.

                 Table 4. DSCP FY 2000 Cost Recovery Rates
                                 (millions)

                                                                           Adjusted*
                                              Bench                    Bench Bench Stock
       Cost Elements             Overall      Stock         IPV        Stock     And IPV

  ICP operations                   $98.04     $ 30.90       $ 7.04     $30.90       $ 37.94
  Depot operations                 133.60       65.00         0.00      53.00         53.00
  Corporate                         27.09       12.53         0.00      12.50         12.50
  Material related                  44.51       16.32         0.00      16.32         16.32
  Other/inflation                    5.78       18.79       (5.89)       2.87          2.87

   Total costs                    $309.02     $143.54      $ 1.15     $115.59       $122.63

   Sales                          $776.60     $250.90      $20.00     $250.90       $270.90

   Cost Recovery Rates              39.8%        57.2%        5.7%       46.1%        45.3%

 *Includes Depot operations and other non-bench stock related adjustments.




                 Table 5. DSCP FY 2001 Cost Recovery Rates
                                (millions)

                                                                           Adjusted*
                                               Bench                   Bench Bench Stock
       Cost Elements            Overall        Stock        IPV        Stock     and IPV

  ICP operations                  $112.63       $ 38.94    $4.82       $ 38.94      $ 43.76
  Depot operations                 110.00        57.26      0.00         57.26        57.26
  Corporate                        107.27         56.68     0.00         22.56        22.56
  Material related                  30.93         12.10     0.00         12.10        12.10
  Other/inflation                   12.74         19.18     (2.64)        4.49         4.65

   Total costs                    $373.57      $184.16     $2.18      $135.35       $140.33

   Sales                          $923.00      $245.83     $38.00     $245.83       $283.83

   Cost Recovery Rates              40.5%          74.9%     5.7%        55.1%        49.4%

 *Includes Defense Reutilization and Marketing Service and other non-bench stock adjustments.




                                              10
Recommendation 1.c., in Report No. D-2001-072, addressed the need to use an
appropriate cost recovery rate for bench-stock material in the 45 to 50 percent
range when decisions are made to place items on contract and for program
evaluation purposes. Therfore, a similar recommendation in this report was not made.

Impact of Cost Recovery Rates Increases. As conventional bench-stock sales
are transitioned to the IPV program without corresponding infrastructure cost
reductions, the DSCP cost recovery rate for traditional bench-stock support
increases. Increases in the DSCP cost recovery rates effectively lower the bar for
measuring the cost effectiveness of the IPV program. The upward trend in the
DSCP cost recovery rate for bench-stock material also raises concerns because
funds are shifted from buying material to paying for support. The DSCP bench-
stock CRR or cost of sales was 40 percent in FY 1999, 57.2 percent in FY 2000,
and in 74.9 percent in FY 2001.

Figure 5, a model using $10 million as the amount spent by Cherry Point (with
$750,000 for infrastructure costs) shows how increasing cost recovery rates for
bench-stock material translates into less material. The model shows that Cherry
Point would have received over $6.6 million of material at the 40 percent CRR in
FY 1999 (line A), $5.9 million of material in FY 2000 (line B), and only
$5.3 million of material in FY 2001 (line C) at the 74.9 CRR.


                                  Trends in Bench Stock Support (model)

               10

                9
                                                                            Cost of Sales
                8                                                            (Service)
                          FY 1999
                7                                            FY 2000
                                                                                       FY 2001
                6         6.6
  $ Millions




                                                             5.9
                5                                                                            5.3

                4
                                         Material
                3             A                              B                               C
                2

                1

                0                                         57.2                        74.9
                    35   40         45      50       55          60    65        70         75     80
                                                 Cost Recovery Rate

Figure 5. DSCP Bench Stock Customers are Receiving Less material and
Paying More for Support.


                                                     11
As in any commercial business, cost of sales as a percentage of sales is a key
factor for a business to be successful. Normally, when sales are declining,
commercial companies are forced to reduce costs to remain competitive. DSCP
needs to focus on conventional bench-stock support and provide alternatives to
remain competitive by either reducing costs or increasing bench-stock sales.
Ideally, DSCP would strive to accomplish both alternatives.

Measuring the Cost Effectiveness of the IPV Program. The cost-effectiveness
of the IPV program is based on a comparison with conventional prices for bench-
stock material. Unfortunately, the comparison with conventional support changes
dramatically from year to year with changes in the DSCP cost recovery rate.
Consequently, as the DSCP cost recovery rate for bench-stock material increases
and DSCP becomes less efficient in managing conventional bench-stock material,
the IPV program appears more cost-effective.

Figure 6, is a model that shows the price above the DLA MAUC that the IPV
contractor would have to obtain sufficient material to break even with DLA
conventional support when compared with DLA bench-stock prices shown in
Figure 5 for FYs 1999 through 2001. The model uses $10 million as the amount
spent by Cherry Point with $274,875 for transportation costs, $1,289,400 for
infrastructure costs, a Raytheon fee at 8 percent, and a DSCP cost recovery rate at
5.7 percent.

                                         IPV Program Support (model)
             10

                 9

                 8                                           Cost of Sales
                                                              (Service)
                 7                                                                          Cherry Point
                                                                                            IPV Contract
                              6.6
                 6
    $ Millions




                                                       5.9
                 5                                                            5.3
                                                                                             5.2

                 4

                 3            A                        B                               C     D
                                    Material
                 2

                 1

                 0        11                    24.5                                38.5 40.4
                     5   10         15     20      25            30      35            40          45      50
                                          Percent above DLA MAUC


Figure 6. The IPV Program Becomes Less Cost-Effectiveness as the Percent
Above the DLA Price Increases


                                                  12
    Using 40.4 percent (D), as the difference between the IPV contract price and the
    DLA price calculated in Table 3 for bench-stock material, the IPV program would
    cost significantly more than conventional DLA support when compared to
    FY 1999 (A) or FY 2000 (B) prices. The IPV program would cost only slightly
    more than conventional DLA support when compared to FY 2001 (C) prices.

    DSCP needs to calculate a fair and consistent cost recovery rate for traditional
    bench-stock material to effectively evaluate the cost effectiveness of the IPV
    program. The fair and consistent cost recovery rate for traditional bench-stock
    material should exclude unrelated or IPV program expenses and should also
    address the impact of transferring sales from traditional support to IPV program
    support.

Summary
    The IPV program at Cherry Point has been highly touted as a best commercial
    business practice−an improved way for DLA to manage suppliers and not
    supplies. Unfortunately, the IPV contractor has not demonstrated that it can
    obtain bench-stock material as cost effectively as DSCP for the current program
    to become viable. We remain skeptical about the IPV contractor’s ability to
    obtain bench-stock material as effectively as DSCP using only direct vendor
    delivery contracts with its suppliers. DSCP needs to develop an exit strategy for
    Cherry Point, in case the IPV contractor continues to be unable to obtain bench-
    stock material as cost effectively as DSCP. We also remain skeptical about the
    role and the effectiveness of DLA as a manager of suppliers as opposed to a
    supply manager.

    Whether the IPV program is a commercial business practice that can be used by
    DLA to effectively provide better, faster, and cheaper support for bench-stock
    material around the world, around the clock is not close to being demonstrated.

Management Comments on the Finding and Audit Response
    Although not required to comment, the Naval Aviation Depot− Cherry Point
    provided the following comments on the finding.

    Management Comments. The Naval Aviation Depot−Cherry Point stated that
    the initial DSCP IPV cost comparison in figure 2 projected $450,000 for
    transportation that was not charged or implemented under this contract. For the
    full text of the Navy comments, see the Management Comments section of the
    report.

    Audit Response. We agree that the $450,000 was not charged under the contract.
    Figure 2 was provided for information purposes as the initial DSCP cost
    comparison that showed program cost saving. The figure also showed Raytheon
    provided $12 million of material annually. Between August 1998 through July
    2000, Raytheon only supplied about $1.6 million of material or 13 percent of the
    expected amount.



                                        13
Recommendations and Management Comments
    A. We recommend that the Commander, Defense Supply Center
    Philadelphia:

          1. Direct that IPV contract prices be renegotiated on contract
    modifications that are not within established cost goals (about 20 percent
    above mean acquisition unit cost or below standard unit price).

          2. Provide alternatives to keep conventional bench-stock support
    competitive by either reducing costs or increasing bench-stock sales.

           3. Calculate a fair and consistent cost recovery rate for traditional
    bench-stock material to effectively evaluate the cost effectiveness of the IPV
    program. The fair and consistent cost recovery rate for traditional bench-
    stock material should exclude unrelated or IPV program expenses and
    should also address the impact of transferring sales from traditional support
    to IPV program support without reducing infrastructure costs.

          4. Develop an exit strategy for Cherry Point, in case the industrial
    prime vendor contractor continues to be unable to obtain bench-stock
    material as cost effectively as the Defense supply centers.


    Management Comments. The Defense Logistics Agency concurred with the
    recommendations and agreed to review actual parts usage with updated demand
    for repricing. Management agreed to look at alternatives for bench-stock support
    and is developing generation II of the industrial prime vendor program.
    Management agreed to use the appropriate cost recovery rates to place items on
    contract and for program evaluation purposes. Management agreed to provide an
    exit strategy for Cherry Point with the industrial prime vendor generation II.




                                       14
           B. Contract Pricing
           Raytheon erroneously charged the Naval Aviation Depot−Cherry Point for
           bench-stock material on the IPV contract. This condition occurred
           because unpriced contract items were improperly charged to the contract
           at prices higher than the DLA standard unit price, because of problems
           relating to different units of issue, and inadequate oversight of contract
           billings. As a result, Cherry Point was overcharged $666,883 ($328,990
           for unpriced items and $337,893 because of bar-coding system errors)
           from contract inception (August 1998) through April 2000. Raytheon
           refunded $337,893 to Cherry Point on June 1, 2000 to correct the bar-
           coding system errors.

Unpriced IPV Contract Items
    Unpriced Items. Raytheon erroneously charged unpriced items to the IPV
    contract at prices greater than the DLA standard unit price. The overcharges
    occurred on contract modifications that had items purchased before the effective
    date of the modification. In fact, a number of items remain unpriced. An
    unpriced contract item is an item that is included on the contract but no price was
    negotiated and agreed upon at the time the item was purchased. The IPV contract
    at Cherry Point is basically silent on how unpriced items should be billed. DSCP
    contracting officials stated that the proper billing of unpriced items should be at
    the DLA SUP. Cherry Point was overcharged by $328,990 ($274,664
    preexpended bins (PEB) and $54,326 Navy Industrial Fund [NIF]) for the
    unpriced items.

    For example, a machine screw (NSN 5305-01-089-1520) was priced on contract
    modification P00048, at $0.0721 each or $7.21 per hundred (effective October 5,
    2000). The DLA SUP for the machine screws was $8.33 per hundred. However,
    on invoices from May 1999 through March 2000, Raytheon charged Cherry Point
    $1.39 each ($139 per hundred), or 16 times the DLA SUP for 23,260 machine
    screws. The total amount billed on the contract for the machine screw was
    $36,245, including Raytheon profit (6 percent) and DSCP surcharge (5.7 percent).
    The appropriate amount was $2,171 a difference of $34,074 or about 94 percent
    less.




                                        15
Table 6 provides a summary of the amounts overcharged for unpriced PEB
contract items at Cherry Point. The total amount overcharged was $274,664.
There were no overcharged PEB contract items on the April through July 2000
invoices.

           Table 6. Raytheon Amount Overcharged for PEB Contract Items
                     Modifications (effective date)
                      P00031             P00048      Unpriced
     Month          (April 2000)     (October 2000)   Items            Total
      1999
     March                $ 1,635         $ 1,258      $ 38,694          $41,587
      April                   579           1,258        17,477           19,314
      May                   5,002           1,570        11,165           17,738
      June                 20,114           2,434        23,274           45,823
      July                  7,116           7,852         3,474           18,442
     August                 3,889           1,258        32,391           37,539
   September                5,468               0            19            5,487
    October                 3,133               0             0            3,133
   November                    80               0          (20)               60
   December                     0               0             0                0
      2000
    January                 9,392          15,811             0           25,203
    February                9,238           5,135             0           14,373
     March                 16,315             131             0           16,446
Material Cost              $81,961        $36,708      $126,474         $245,143
Raytheon Fee (6.0 percent)                                                14,709
Subtotal                                                                $259,852
DSCP Service Fee (5.7 percent)                                            14,812
Total                                                                   $274,664




                                     16
     Table 7 provides a summary of the amounts overcharged for the NIF contract
     items at Cherry Point. The total amount overcharged was $54,326. There were
     no overcharged NIF contract items on the May through July 2000 invoices.


             Table 7. Raytheon Amount Overcharged for NIF Contract Items
                      Modifications (effective date)
                    P00031      P00048         P00050        P00053       Unpriced
        Invoice   (April 2000) (Oct-00)       (Oct-00)      (Nov-00)       Items          Total
         1999
          May         $ 928         $1,320          $ 0          $ 1            $ 285     $ 2,534
          June        10,523             0           (53)         459            4,192     15,121
          July         4,977             0             0          132              (76)     5,033
        August         2,211         1,320             0            0               81      3,612
      September        7,404             0             0            0                0      7,404
       October           508             0             0          164                0        672
      November         6,306             0             0            0                0      6,306
      December             0             0           (94)           0                0        (94)
         2000
       January          7,060            0             0            0               0       7,060
       February           128            0             0            0               0         128
         March            194            0             0            0             487         681
         April*            30            0             0            0               0          30

     Total           $40,269        $2,640        ($147)        $756          $4,969      $48,487
                                                                         Profit (6%)        2,909
                                                                                          $51,396
                                                                     Surcharge (5.7%)       2,930
                                                                                          $54,326
     *Items that were billed before the contract modification date (4-17-00).


     DSCP needs to obtain a full refund from Raytheon for erroneous charges
     including lost interest and take appropriate steps to reimburse Cherry Point for the
     full amount of the contract overcharges.

Accounting for Different Units of Issue
     Problems accounting for different units of issues were the primary cause for the
     erroneous charges. In the DLA wholesale inventory system, some items were
     packaged in multiple units of issue, such as hundreds (HD). The common
     practice at DSCP was to solicit items using the HD unit of issue, then convert any
     quotes received as each (EA) to HD. Conversion is often necessary because some
     suppliers only supplied the item in the EA unit of issue, and indicated this on their
     quotes. Similarly, for the IPV contract at Cherry Point, Raytheon's suppliers
     quoted using their customary EA unit of issue, and in the evaluation process these
     items were reviewed as having been quoted to the DLA unit of issue (HD or
     package), when in fact the prices were submitted as each.


                                               17
    Table 8 shows an example of erroneous pricing involving unit of issue differences
    and the associated cost impact. From May 1999 through January 2000, 2,300
    machine screws (NSN 5305-00-839-3437) were billed at $3.136 each. However,
    the contract price is $4.43 per HD (although not actually negotiated until April
    2000). The DLA SUP for the machine screws was $3.31 per HD or $0.0331 each.
    Since the machine screws had not yet been priced on contract and the item was
    not approved as a spot buy (items managed by DLA but not in stock), only the
    DLA SUP price should have been charged to the IPV contract.

        Table 8. Erroneously Pricing of Machine Screws (NSN 5305-00-839-3437)
      Description             Qty billed    Unit of Issue   Unit Cost   Total Cost
      Raytheon billing          2,300            EA         $3.1360     $7,214.95
      Corrected billing         2,300            EA          0.0331         76.13
       Amount overbilled                                                $7,138.82

    Corrective Actions. DSCP and Raytheon have taken action to address the unit of
    issue problems as first reported in Report No. D-2001-072. DSCP commented
    that Raytheon had implemented an NSN data management process and that the
    process begins when the customer identifies the NSN, through the solicitation
    review, and submission to DSCP. This process effectively screens all items so
    unit of issue problems will not recur. Raytheon works with the customer and
    DSCP to identify required baseline items. By screening site customer databases,
    comparing DLA unit of issue, and performing reconciliation, the right quantity
    and unit of issue are agreed to before submission to DSCP for formal placement
    on the contract. Within this process, any item unit of issue that can be broken into
    its lowest denominator is converted before being cited in Raytheon’s request for
    quote to its suppliers (for example, 1 HD becomes 100 EA). This process
    translates the ‘Government’ unit of issue categorization into a ‘commercial’
    categorization that is compatible with industry convention. These items are then
    highlighted in the pricing submission to DSCP and show the commercial bid as
    well as the Government price. In this way, DSCP can readily identify, and sort
    any necessary items that need translation in the bid evaluation process.

Contract Oversight
    Invoice Oversight. DSCP also did not provide adequate oversight to ensure
    contract invoices were accurate. DSCP attempted to verify contract billings by
    matching contract prices to a contract database developed by a third party
    consultant. When discrepancies were discovered a file was made and forwarded
    to DSCP contracting officials for further review. DSCP contracting officials
    worked to resolve the discrepancies. However, the DSCP invoice verification
    process failed to detect unpriced items billed in excess of the DLA SUP to Cherry
    Point. In addition, Cherry Point relied on DSCP to ensure contract invoices were
    accurate and was unaware of being overcharged for unpriced items. Ordinarily
    under the IPV contract, if demand arose for an item that is not priced on the
    contract, Raytheon would check the DLA supply system for availability. If DLA
    did not have the item on-hand, Raytheon would request quotes from vendors and
    ask Cherry Point to authorize a spot buy at the vendors' price. Raytheon did not
    follow contract procedures by invoicing Cherry Point a price in excess of SUP for
    an unpriced item without proper authorization from Cherry Point.


                                           18
       DLA Supplied Items. In addition, Cherry Point was overcharged $337,893 on
       invoices from December 1999 through March 2000 because Raytheon
       implemented a new bar-coding system that recorded prices for items from the
       DLA Supply system in error. The majority of errors were unit of issue and
       decimal point errors. Neither DSCP nor Raytheon detected this error. After
       Cherry Point notified DSCP of the problem, DSCP and Raytheon reviewed and
       corrected the invoices. Raytheon modified its procedure for invoicing DLA
       supplied items to ensure this error will not recur. Cherry Point received a check
       from Raytheon for $337,893 on June 1, 2000.

       In order to regain customer confidence that prices are accurately billed, DSCP
       needs to implement procedures to detect and prevent erroneous billings from
       occurring on future invoices.

Recommendations and Management Comments
       B. We recommend that the Commander, Defense Supply Center
       Philadelphia:

               1. Obtain a full refund from Raytheon for erroneous charges
       including lost interest and take appropriate steps to reimburse Cherry Point
       for the full amount of the contract overcharges.

             2. Implement procedures to detect and prevent erroneous billings
       from occurring on future invoices.

Management Comments. The Defense Logistics Agency concurred with all
recommendations and agreed to refund Cherry Point an appropriate amount for
overcharges. Management also agreed to implement procedures to prevent erroneous
billings on future invoices.




                                           19
Appendix A. Audit Process

Scope
    Work Performed. We reviewed DLA procedures and support contract
    documentation issued by DSCP to Raytheon under IPV contract SPO500-98-D-
    BP03. Specifically, we reviewed contract invoices from contract inception
    (August 19, 1998) through July 2000. We reviewed a total of 33,423 line items
    for benchstock items valued at $11,124,708. Additionally, we determined if the
    IPV program reduced system infrastructure and depot operation costs. We
    reviewed DLA cost recovery rates for FY 1999 through FY 2001. We also
    reviewed spot buy procedures. Our review focused on whether the IPV program,
    when fully operational, is beneficial to Cherry Point and DoD as a whole.

    Limitations to Scope. The adequacy of the DLA management control program
    was addressed in Inspector General, DoD, Report No. 98-088, "Sole-Source
    Prices for Commercial Catalog and Noncommercial Spare Parts," therefore, we
    did not review it further.

    DoD-Wide Corporate Level Government Performance and Results Act
    (GPRA) Goals. In response to the GPRA, the Secretary of Defense annually
    establishes DoD-wide corporate level goals, subordinate performance goals, and
    performance measures. This report pertains to achievement of the following
    goals, subordinate performance goals, and performance measures:

             •    FY 2001 DoD Corporate Level Goal 2: Prepare now for an
                 uncertain future by pursuing a focused modernization effort that
                 maintains U.S. qualitative superiority in key warfighting capabilities.
                 Transform the force by exploiting the Revolution in Military Affairs,
                 and reengineer the Department to achieve a 21st century
                 infrastructure. (01-DoD-2)

             •    FY 2001 Subordinate Performance Goal 2.3: Streamline the DoD
                 infrastructure by redesigning the Department's support structure and
                 pursuing business practice reforms. (01-DoD-2.3)

             •    FY 2001 Performance Measure 2.3.1: Percentage of DoD Budget
                 Spent on Infrastructure. (01-DoD-2.3.1)

             •    FY 2001 Subordinate Performance Goal 2.4: Meet combat
                 forces' needs smarter and faster, with products and services that work
                 better and cost less, by improving the efficiency of DoD's acquisition
                 process. (01-DoD-2.4)




                                         20
    DoD Functional Area Reform Goals. Most major DoD functional areas have
    also established performance improvement reform objectives and goals. This
    report pertains to achievement of the following functional area objectives and
    goals.

             •    Acquisition Functional Area. Objective: Foster Partnerships.
                 Goal: Decrease paper transactions by 50% through electronic
                 commerce and electronic data interchange. (ACQ-2.3)

             •    Logistics Functional Area. Objective: Develop a seamless
                 logistics system. Goal: Improve the communication of logistics
                 information (developing and implementing an integrated data
                 environment to expand EDI, and enhance information exchange
                 within DoD, with industry, other government agencies, and with
                 allies. (LOG-2.2)

Methodology
    Use of Computer-Processed Data. We relied on computer-processed data from
    the Defense Supply Center Philadelphia and Raytheon to determine the audit
    scope. The computer-processed data were determined reliable based upon the
    significant number of contract items we reviewed and compared to the data output
    from DSCP. Although we did not perform a formal reliability assessment of the
    computer-processed data, we determined that the bin locations, quantities, order
    dates, and amounts generally agreed with the information in the computer-
    processed data. We did not find errors that would preclude use of the computer-
    processed data to meet the audit objectives or that would change the conclusions
    in the report.

    Audit Type, Dates, and Standards. We performed this program audit from
    December 2000 through February 2001 in accordance with auditing standards
    issued by the Comptroller General of the United States, as implemented by the
    Inspector General, DoD. We did our work in accordance with generally accepted
    Government auditing standards except that we were unable to obtain an opinion
    on our system of quality control. The most recent external quality control review
    was withdrawn on March 15, 2001, and we will undergo a new review.

    Contacts During the Audit. We visited or contacted individuals within the DoD
    and Raytheon. Further details are available on request.




                                       21
Appendix B. Prior Coverage
     During the last 5 years, the General Accounting Office has issued four audit
     reports and the Inspector General, DoD has issued eight audit reports discussing
     either logistics response time or prices for spare parts in the Acquisition Reform
     environment.

General Accounting Office
     General Accounting Office, Report No. GAO-01-22 (OSD Case No. 2080),
     “Defense Acquisitions: Price Trends for the Defense Logistics Agency’s Weapon
     Systems Parts,” November 2000.

     General Accounting Office, Report No. NSIAD-00-30 (OSD Case No. 1920),
     “Opportunities Exist to Expand the Use of Defense Logistics Agency Best
     Practices," January 2000.

     General Accounting Office, Report No. NSIAD-00-21 (OSD Case No. 1868),
     “Management of Repair Parts Common to More than one Military Service can be
     Improved,” October 1999.

     General Accounting Office, Report No. NSIAD-99-90 (OSD Case No. 1808),
     “DoD Pricing of Commercial Items Needs Continued Emphasis,” June 1999.

Inspector General, DoD
     Inspector General, DoD, Report No. D-2001-072, "Industrial Prime Vendor
     Program at the Naval Aviation Depot - North Island," March 5, 2001.

     Inspector General, DoD, Report No. D-2000-099, “Procurement of the Propeller
     Blade Heaters for the C-130 and P-3 Aircraft,” March 8, 2000.

     Inspector General, DoD, Report No. D-2000-098, “Spare Parts and Logistics
     Support Procured on a Virtual Prime Vendor Contract,” March 8, 2000.

     Inspector General, DoD, Report No. 99-217, “Sole-Source Commercial Spare
     Parts Procured on a Requirements Type Contract,” July 21, 1999.

     Inspector General, DoD, Report No. 99-101, “Logistics Response Time for the
     Direct Vendor Delivery Process, Defense Supply Center, Columbus,” March 4,
     1999.

     Inspector General, DoD, Report No. 99-026, “Commercial Spare Parts Purchased
     on a Corporate Contract,” October 30, 1998.

     Inspector General, DoD, Report No. 98-088, “Sole-Source Prices for Commercial
     Catalog and Noncommercial Spare Parts,” March 11, 1998.




                                          22
Inspector General, DoD, Report No. 98-064, “Commercial and Noncommercial
Sole-Source Items Procured on Contract N000383-93-G-M111,” February 6,
1998.




                                23
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Deputy Under Secretary of Defense (Logistics)
  Director, Acquisition Initiatives
  Director, Defense Procurement
Under Secretary of Defense (Comptroller/Chief Financial Officer)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy
Commanding Officer, Fleet Industrial Supply Center, San Diego
Commanding Officer, Naval Aviation Depot, Cherry Point
Commanding Officer, Naval Aviation Depot, North Island

Department of the Air Force
Assistant Secretary of the Air Force (Acquisition)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Contract Management Agency
Director, Defense Logistics Agency




                                           24
Other Defense Organizations (cont’d)
  Commander, Defense Supply Center Columbus
  Commander, Defense Supply Center Philadelphia
  Commander, Defense Supply Center Richmond

Non-Defense Federal Organizations
Office of Management and Budget
Office of Federal Procurement Policy

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                          25
Defense Logistics Agency Comments




                  27
28
29
Department of the Navy Comments




                        30
31
32
Audit Team Members
The Contract Management Directorate, Office of the Assistant Inspector
General for Auditing, DoD, prepared this report. Personnel of the Office of the
Inspector General, DoD, who contributed to the report are listed below.

Richard B. Jolliffe
Terry L. McKinney
Henry F. Kleinknecht
Joseph P. Bucsko
Nicole A. Lukacs
Ricky T. Phaison
